<html>
<title> - RECENT INNOVATIONS IN SECURITIZATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  RECENT INNOVATIONS IN SECURITIZATION

=======================================================================


                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON CAPITAL MARKETS,

                       INSURANCE, AND GOVERNMENT

                         SPONSORED ENTERPRISES

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2009

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 111-79



                  U.S. GOVERNMENT PRINTING OFFICE
54-870                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            MICHAEL N. CASTLE, Delaware
CAROLYN B. MALONEY, New York         PETER T. KING, New York
LUIS V. GUTIERREZ, Illinois          EDWARD R. ROYCE, California
NYDIA M. VELAZQUEZ, New York         FRANK D. LUCAS, Oklahoma
MELVIN L. WATT, North Carolina       RON PAUL, Texas
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
BRAD SHERMAN, California             WALTER B. JONES, Jr., North 
GREGORY W. MEEKS, New York               Carolina
DENNIS MOORE, Kansas                 JUDY BIGGERT, Illinois
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
RUBEN HINOJOSA, Texas                SHELLEY MOORE CAPITO, West 
WM. LACY CLAY, Missouri                  Virginia
CAROLYN McCARTHY, New York           JEB HENSARLING, Texas
JOE BACA, California                 SCOTT GARRETT, New Jersey
STEPHEN F. LYNCH, Massachusetts      J. GRESHAM BARRETT, South Carolina
BRAD MILLER, North Carolina          JIM GERLACH, Pennsylvania
DAVID SCOTT, Georgia                 RANDY NEUGEBAUER, Texas
AL GREEN, Texas                      TOM PRICE, Georgia
EMANUEL CLEAVER, Missouri            PATRICK T. McHENRY, North Carolina
MELISSA L. BEAN, Illinois            JOHN CAMPBELL, California
GWEN MOORE, Wisconsin                ADAM PUTNAM, Florida
PAUL W. HODES, New Hampshire         MICHELE BACHMANN, Minnesota
KEITH ELLISON, Minnesota             KENNY MARCHANT, Texas
RON KLEIN, Florida                   THADDEUS G. McCOTTER, Michigan
CHARLES A. WILSON, Ohio              KEVIN McCARTHY, California
ED PERLMUTTER, Colorado              BILL POSEY, Florida
JOE DONNELLY, Indiana                LYNN JENKINS, Kansas
BILL FOSTER, Illinois                CHRISTOPHER LEE, New York
ANDRE CARSON, Indiana                ERIK PAULSEN, Minnesota
JACKIE SPEIER, California            LEONARD LANCE, New Jersey
TRAVIS CHILDERS, Mississippi
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
STEVE DRIEHAUS, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
DAN MAFFEI, New York

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
 Subcommittee on Capital Markets, Insurance, and Government Sponsored 
                              Enterprises

               PAUL E. KANJORSKI, Pennsylvania, Chairman

GARY L. ACKERMAN, New York           SCOTT GARRETT, New Jersey
BRAD SHERMAN, California             TOM PRICE, Georgia
MICHAEL E. CAPUANO, Massachusetts    MICHAEL N. CASTLE, Delaware
RUBEN HINOJOSA, Texas                PETER T. KING, New York
CAROLYN McCARTHY, New York           FRANK D. LUCAS, Oklahoma
JOE BACA, California                 DONALD A. MANZULLO, Illinois
STEPHEN F. LYNCH, Massachusetts      EDWARD R. ROYCE, California
BRAD MILLER, North Carolina          JUDY BIGGERT, Illinois
DAVID SCOTT, Georgia                 SHELLEY MOORE CAPITO, West 
NYDIA M. VELAZQUEZ, New York             Virginia
CAROLYN B. MALONEY, New York         JEB HENSARLING, Texas
MELISSA L. BEAN, Illinois            ADAM PUTNAM, Florida
GWEN MOORE, Wisconsin                J. GRESHAM BARRETT, South Carolina
PAUL W. HODES, New Hampshire         JIM GERLACH, Pennsylvania
RON KLEIN, Florida                   JOHN CAMPBELL, California
ED PERLMUTTER, Colorado              MICHELE BACHMANN, Minnesota
JOE DONNELLY, Indiana                THADDEUS G. McCOTTER, Michigan
ANDRE CARSON, Indiana                RANDY NEUGEBAUER, Texas
JACKIE SPEIER, California            KEVIN McCARTHY, California
TRAVIS CHILDERS, Mississippi         BILL POSEY, Florida
CHARLES A. WILSON, Ohio              LYNN JENKINS, Kansas
BILL FOSTER, Illinois
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 24, 2009...........................................     1
Appendix:
    September 24, 2009...........................................    33

                               WITNESSES
                      Thursday, September 24, 2009

Curry, Daniel, President, DBRS, Inc..............................    19
Dorsett, J. Russel, Co-Managing Director of Veris Settlement 
  Partners, on behalf of The Life Insurance Settlement 
  Association....................................................    12
Dubberly, Paula, Associate Director, Division of Corporation 
  Finance, U.S. Securities and Exchange Commission...............     7
Gearhart, Kurt, Global Head of Regulatory and Execution Risk, 
  Life Finance Group, Credit Suisse..............................    15
Kelly, Jack, Director of Government Affairs, The Institutional 
  Life Markets Association.......................................    14
Pardo, Brian D., Chairman and Chief Executive Officer, Life 
  Partners Holdings, Inc.........................................    10
Strongin, Steven H., Managing Director and Head of Global 
  Investment Research, Goldman, Sachs & Co.......................    18
Voss, Hon. Susan E., Commissioner, Iowa Insurance Commission, on 
  behalf of The National Association of Insurance Commissioners..     8

                                APPENDIX

Prepared statements:
    Kanjorski, Hon. Paul E.......................................    34
    Curry, Daniel................................................    36
    Dorsett, J. Russel...........................................    43
    Dubberly, Paula..............................................    51
    Gearhart, Kurt...............................................    63
    Kelly, Jack..................................................    73
    Pardo, Brian.................................................    85
    Strongin, Steven H...........................................    92
    Voss, Hon. Susan E...........................................    97

              Additional Material Submitted for the Record

    Written statement of Joseph M. Belth.........................   103


                  RECENT INNOVATIONS IN SECURITIZATION

                              ----------                              


                      Thursday, September 24, 2009

             U.S. House of Representatives,
                   Subcommittee on Capital Markets,
                          Insurance, and Government
                             Sponsored Enterprises,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2128, Rayburn House Office Building, Hon. Paul E. 
Kanjorski [chairman of the subcommittee] presiding.
    Members present: Representatives Kanjorski, Sherman, Scott, 
Maloney, Minnick, Kosmas, Grayson, Himes; Garrett, Manzullo, 
Capito, and Jenkins.
    Also present: Representatives Watt, Green, and Hirono.
    Chairman Kanjorski. This hearing of the Subcommittee on 
Capital Markets, Insurance, and Government Sponsored 
Enterprises will come to order.
    I ask unanimous consent that Ms. Hirono of Hawaii have 
permission to participate in today's hearing. Pursuant to 
committee rules, each side will have up to 15 minutes for 
opening statements. Without objection, all members' opening 
statements will be made a part of the record.
    We meet this afternoon to examine recent innovations in our 
securities markets, especially those related to life insurance 
settlements. While the life settlement industry is now well 
established and quickly growing, the securitization of life 
settlements remains in its infancy. Investors, however, have 
already gained access to securities products like life 
settlement funds, mortality indexes, and derivatives linked to 
life settlements.
    Today's hearing offers us an incredible opportunity to 
employ the lessons that I hope we all learned, even though we 
paid too dear a price to learn them, about issuing toxic 
securities. By asking some fundamental questions about this 
industry, we can prevent trouble using foresight rather than 
later undergoing disaster in hindsight.
    Specifically, we should ask how one would securitize life 
settlements, what is needed to properly securitize these 
products, and whether or not we should securitize them. We 
should also explore how we can protect those who invest in 
these products and better safeguard those who sell their life 
insurance policies.
    Perhaps most importantly, we must examine whether or not 
securities products based on life settlements actually 
contribute to economic growth or merely prolong the casino 
culture on Wall Street that got us into our current economic 
mess.
    Generally, I see enormous value in securitization. Pooling 
assets together to create new products can effectively allocate 
limited economic resources. Securitization has mobilized 
trillions of dollars of capital from around the world to enable 
Americans to purchase cars and homes, obtain a college 
education, and start new businesses. Through securitization, we 
have also created new sources of liquidity and helped investors 
to diversify their portfolios. In short, the securitization of 
home mortgages and other assets still has the potential to 
produce enormous societal benefits.
    That said, we must remember that securitization is only an 
engine and not an end in itself. Like other engines, for it to 
run as intended, securitization needs strong, reliable inputs, 
responsible operators, and clear rules of the road. In the case 
of the subprime crisis, we failed on all three fronts.
    Wall Street's insatiable demand for subprime mortgages 
fueled a Frankenstein-like engine that allowed originators to 
hit full throttle and bundle tens of thousands of toxic 
mortgages without regard for the consequences.
    At the same time, regulators ineptly monitored these 
activities, underwriters dangerously relaxed standards, and far 
too many investors failed to fully understand the purchases 
they made.
    Perhaps most troubling, the gatekeepers to our markets, 
credit rating agencies, negligently if not recklessly stamped 
nearly everything with a AAA. Their widely inappropriate 
investment grades nearly drove our economy off a cliff.
    Before life settlements have the chance to give 
securitization another black eye, we ought to consider the need 
for additional safeguards. Today's hearing will therefore focus 
on whether or not life settlements are an appropriate input for 
the securitization engine, or whether or not its operators can 
appropriately drive this vehicle.
    Life settlements can provide retirees with a source of 
liquidity to fund unexpected expenses or to sell an asset that 
they no longer need at a better price. But this industry also 
has the potential for substantial abuse. Presently, States 
inconsistently regulate life settlements. Many States have also 
failed to require the registration of life settlement brokers.
    Moreover, because of the opaqueness of life expectancy 
estimates, some investors in life settlement funds have already 
lost money on inaccurate predictions. The financial gains made 
by a select few middlemen from the transaction costs related to 
life settlements are also estimated to be 4 times that 
associated with the sale of masterpiece paintings.
    In sum, we face many problems with this budding industry. 
The improper securitization of life settlements could 
ultimately leave countless seniors penniless and innumerable 
investors broke. The idea of institutional investors profiting 
from a person's death also seems, to say the least, unsettling 
and immoral. It leads us down a slippery slope that might 
eventually result in indexes based on divorce rates and swaps 
tied to gambling losses.
    We are hopefully now emerging from the worst recession of 
our time. This committee is also working diligently to 
strengthen the regulation of our financial system to withstand 
future crises. It is in this spirit of reform that we should 
examine the life settlement industry and its connections to our 
securities markets. By doing so today, and before we face 
another crisis, we may also decide that the best policy is to 
keep this Pandora's box shut.
    I will now recognize Mr. Garrett for 5 minutes.
    Mr. Garrett. Thank you, Mr. Chairman.
    And thank you to all the members of the panel and on the 
additional end table of the panel here as well.
    I thank the chairman for holding this hearing today.
    You know, due to the problems that we have experienced over 
the last couple of years in the secondary mortgage market, it 
is really timely and appropriate that this subcommittee fulfill 
its role and conduct proper oversight over any new advances in 
securitization and how these new advances in securitization 
might affect consumers and investors.
    Now, the main asset class that we are focusing on today is 
life insurance settlements. These products have been around, as 
you all know, since the 1980's, and the industry has continued 
to grow since its inception. As I understand it from talking to 
some of the folks in industry, that looking at an industry 
around $31 billion in size, and it is slated to grow even more.
    I believe that the number one focus of this hearing today 
should be the well-being of our senior citizens and their 
families. It is these people that we want to make certain that 
we are looking out for.
    While we want to do our best to protect the seniors and 
their families from any harmful financial products, we really 
don't want to limit their consumer choices and deprive the 
elderly of ways for them to enhance the current quality of 
life.
    Prior to the development of the life insurance settlement 
marketplace, policyholders really had two options before them 
for dealing with their life insurance policies: they could stop 
paying the premiums and allow the policies to lapse; or simply 
surrender the policy for the cash value that life insurance 
would offer. Well, life insurance settlement provides seniors a 
third option that they consider while they try to maximize the 
value of the assets that they hold.
    In some studies I have seen, they have shown that life 
insurance settlements routinely offer 3 or 4 times the return 
to the policyholder in comparison to simply surrendering it in 
for cash value.
    So while there are numerous stories out there about seniors 
benefiting from this type of settlement, there are other 
stories out there we read in the paper about fraud and 
malfeasance in the industry.
    So I look forward to this hearing today, Mr. Chairman, 
about any ongoing initiatives by the States to enhance both 
consumers' and investors' protection as well as their privacy 
rights of anyone selling these policies.
    I am also interested to learn from the NAIC more about 
their model life settlement act and how States are applying it, 
and whether we need--or whether they need to do anything else 
to update that as well. I do believe that transparency and 
accountability in this industry must continue to improve.
    The other main focus of this hearing today should be to 
delve into the concerns that the chairman has mentioned about 
securitization of these assets, because, in the wake of the 
recent financial market collapse where large problems occurred 
and are really still occurring in the mortgage securitization 
market, it is really appropriate that we examine other new 
forms of securitization that at least have the potential, we 
think, to grow and expand.
    Now, there is that recent New York Times article, that I am 
sure we are all familiar with on this topic, that led a few 
people to believe that there is an imminent chance for 
explosion of life insurance settlement securitization. But as I 
understand it, there have been, to date, only a couple of real 
specific securitizations that have occurred in this area of 
around $3 billion. And when you consider that the total 
outstanding dollar amount of life insurance policies in general 
is around $27 trillion, I find it hard to believe that these 
few securitizations pose a threat to the broader life insurance 
market and industry.
    With that said, I do recognize the potential for growth in 
this market and this industry, and I do feel it is appropriate 
that we take time right now to learn more about these products 
before it potentially, if it could, get out of hand, much like 
Fannie Mae and Freddie Mac and the GSEs did in the secondary 
mortgage market, and Congress just didn't act in time.
    I know the SEC recently announced the formation of a task 
force to examine these issues, and I do look forward to hearing 
what they are doing and considering on a regulatory front, 
because, at the end, protecting consumers and investors and 
ensuring the integrity of our capital markets are critical 
tasks before this subcommittee and this Congress, and I believe 
we are moving in the right direction by having this hearing 
today. That is why I thank this panel, and I thank the chairman 
for doing so.
    I yield back.
    Chairman Kanjorski. Thank you very much, Mr. Garrett. We 
will now hear from Mr. Sherman of California for 3 minutes.
    Mr. Sherman. I look at this from four directions.
    First, from the standpoint of investors in the securities, 
do they understand the investment? Are they marketed correctly? 
I would rely on the SEC to make sure that is the case.
    Unlike everything else we are doing in this committee, at 
least what we are talking about today does not pose a systemic 
risk to the entire economy. I would say an investment in a pool 
of life insurance policies is no more difficult to understand 
than buying the common stock of a life insurance company.
    Second is the overall ghoulishness, which is why I think we 
are here. But we should keep in mind that there are many 
investments in which you benefit from a misfortune. You buy oil 
futures, and if Iran blocks the Strait of Hormuz, you sell the 
S and P short; and if our economy goes down or you sell short 
the stock of a life insurance company; and if people don't live 
as long as we currently suspect, you make money. There are 
plenty of investments in which the investor makes money due to 
the misfortune of others.
    Third is from the policy owner's perspective. Let's face 
it, life insurance companies are selling whole life and similar 
policies as investments, and then when you want to surrender 
the policy, they provide you far less than the actuarial value 
as the cash surrender value. Policy owners who bought these 
investments should try to get as much of the actuarial value of 
their investment as possible. The way to do that is to have 
people--well, the real way to do it is to have the life 
insurance industry dramatically increase cash surrender value 
to something approaching actuarial value. But if they won't, 
then we have to allow or ought to allow policy owners to sell 
their policies to the highest bidder. The more bidders, the 
more they will get. And if some of those bidders are involved 
in securitization, that brings in more bidders. Otherwise, 
people who have paid for decades are going to get only a small 
fraction of what their policy is worth.
    Finally, from the insurance company's standpoint, I am told 
that roughly 90 percent of the policies are surrendered or 
abandoned. Obviously, if the cash surrendered value is far less 
than the actuarial value, the insurance company makes more 
money. Do they pass this on to consumers, or is this just a 
profit center for the insurance industry?
    I don't know whether Congress should intervene in the 
markets to prevent policy owners from getting fair value on the 
expectation that means life insurance companies will make more 
money and that is somehow good for consumers.
    I yield back.
    Chairman Kanjorski. Thank you very much, Mr. Sherman.
    We will now hear from Mr. Scott of Georgia for 2 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    There are certain concerns with the interaction of the life 
settlement industry and the securities markets, so this hearing 
is very timely, how this interaction will have an impact on 
investors and how those investors will actually benefit from 
those life settlement deals regarding life insurance. I am 
concerned with the standards of underwriting that I believe, as 
we move forward in looking at all areas of the financial 
service industry, we must remain focused on the very important 
aspect of transparency. Also, when assets are securitized, it 
gives investors new hurdles in addressing the authenticity of 
the policy.
    Securities and Exchange Commission Chairman Mary Schapiro 
has expressed her own concerns over the role of securitization 
in life settlements and believes that there are many questions 
to be asked relating to sales and practice and privacy rights, 
serious questions. The interaction of the life settlement 
industry with securities markets raises the question of, how 
will investors be protected? We certainly need answers to that 
question. Should we more intently focus on the transparency of 
underwriting standards used as well as mortality estimates? 
Does the securitization of life settlement produce unintended 
consequences for the State guarantee funds, especially if more 
policyholders obtain life settlements and fewer life insurance 
policies lapse? These are very serious questions that we have 
to examine. The hearing is very timely, and I look forward to 
each of your presentations.
    Thank you, Mr. Chairman.
    Chairman Kanjorski. Thank you very much.
    I will now recognize the gentleman from Florida, Mr. 
Grayson, for 3 minutes.
    Mr. Grayson. Santayana said, ``Those who cannot remember 
the past are condemned to repeat it.'' So it certainly is 
important that we learn from history, but it is also important 
that we learn the real lessons of history and not delude 
ourselves.
    For instance, some people have adopted the view that 
securitization must be evil, because when we started to 
securitize, we ended up with great economic problems.
    I have a really different point of view about that. I don't 
think there is anything inherently wrong with securitization at 
all. I don't think there is inherently anything wrong with 
securitizing any kind of asset. It depends on how you do it.
    So if those people who believe that securitization is evil 
come to dominate our economy, then the result of that will be 
that we will miss out on the economic opportunities that good 
financial reform can provide to us. So if you came here today 
to try to convince us that we should shut down life settlement 
securitization, I am not going to be with you.
    However, we do need to learn from our experiences. And one 
thing we have learned is that monopoly is not good.
    In the case of life insurance policies, there has a 
monopoly buyer of life insurance policies that are in 
existence. It is the issuer. The issuer is the only one who can 
buy back from you except for the life settlement companies. 
They are the only competition that is provided to the issuer in 
a situation like that. So when we have a monopoly, when we have 
a monopsony, actually, the result of that is that the 
policyholder doesn't get fair value for that policy. And we 
have seen that over and over and over again.
    What we want is we want an industry that provides 
competition. Life settlement actually is an industry that 
promotes and provides competition and provides value to the 
holders of these insurance policies they wouldn't otherwise 
have.
    When we look back on the experience of the last couple of 
years, the real enemy, as I see it, is the enemy of leverage. 
It is the enemy of zero capital requirements or insignificant 
capital requirements. In the case of AIG, there were no capital 
requirements. They could issue anything they want and call it 
some kind of insurance policy, and they didn't have to have any 
reserve requirements at all. No capital requirements, no 
reserve requirements. AIG blew up, and it cost each one of us, 
every American, substantial amounts of money.
    In the case of Fannie Mae, Fannie Mae had 200 to 1 leverage 
and that is why Fannie Mae blew up. Not because Fannie Mae was 
securitizing mortgages, but rather because Fannie Mae was 
abusing the concept of leverage by 200 to 1 leverage.
    Now, ask yourself, how does that apply here to the life 
settlement industry? What is the leverage in the life 
settlement industry? It is zero. The life settlement industry 
doesn't revolve around borrowed money at all. So it simply 
doesn't present to us the same kind of policy issues as the 
unbridled abuses that came with 200 to 1 leverage and estimated 
leverage.
    So as I look at this, I say to myself, what this industry 
is doing is it is helping people get the full value of their 
policies. And I don't think that this industry should be called 
upon to answer for the serious abuses that pervaded this 
economy in other areas over the past 2 years. And the sins of 
others should not descend on you.
    Thank you, Mr. Chairman.
    Chairman Kanjorski. Thank you very much, Mr. Grayson.
    Now we will have an introduction of the panel.
    Thank you all for appearing before the subcommittee today, 
and without objection, your written statements will be made a 
part of the record. You will each be recognized for a 5-minute 
summary of your statement.
    First, we have Ms. Paula Dubberly, Associate Director, 
Division of Corporation Finance, United States Securities and 
Exchange Commission.
    Ms. Dubberly.

 STATEMENT OF PAULA DUBBERLY, ASSOCIATE DIRECTOR, DIVISION OF 
  CORPORATION FINANCE, U.S. SECURITIES AND EXCHANGE COMMISSION

    Ms. Dubberly. Good afternoon, Chairman Kanjorski, Ranking 
Member Garrett, and members of the subcommittee.
    I am pleased to testify on behalf of the United States 
Securities and Exchange Commission on the topic of life 
settlements and new developments in securitization. I 
appreciate the opportunity to discuss with you the Commission's 
work in this area.
    We recognize that securitization plays an important role in 
the financial markets. However, recent experience with 
securitization in the mortgage markets argues for the careful 
review and analysis of all developing securities activities. In 
this regard, the Commission is taking steps to address issues 
with securitization. The staff currently is engaged in a broad 
review of the Commission's regulation of asset-backed 
securities, including disclosure, offering process, and 
reporting by asset-back issuers. The securitization market 
continues to develop, and we recognize that securitization of 
life settlement appears to be a growing practice.
    Life settlements generally are considered securities when a 
third-party purchaser sells a fractional interest in a single 
policy or pools the life settlements and sells interests in the 
pool through securitization. To date, we are not aware of any 
securitized life settlement pools being registered with the SEC 
and publicly sold to investors. But securitized pools are sold 
as private placements, and we will continue to monitor this 
developing area. The SEC has the ability to use its civil 
enforcement authority to combat fraud and other unlawful 
securities-related activity in this market and has done so. The 
Commission has brought a number of cases in this area since the 
mid-1990's.
    In light of the potentially far-reaching consequences of 
the recent movement towards securitization of life settlements, 
Chairman Schapiro has established a multidisciplinary Life 
Settlements Task Force comprised of senior officials from 
throughout the SEC. The task force will examine emerging issues 
in life settlements and advise the Commission whether market 
practices and regulatory oversight can be improved. The task 
force will consider, among other things, the application of the 
Federal Securities laws to life settlements, the emerging role 
of securitization, the life settlements marketplace, including 
trading platforms, and market intermediaries.
    Various groups of investors are affected by life settlement 
securitizations, including investors and the companies that 
sponsor the securitizations, investors in insurance companies, 
and investors that purchase securities backed by life 
settlements. Not only will the staff be looking at the issues 
raised with respect to these groups, but we will also be 
looking at the disclosure provided to these groups of 
investors.
    We also will consider sales practices regarding both the 
sale of existing life insurance policies by contract holders 
and the sale of interest in life settlement pools to investors. 
The Commission is especially concerned that life settlement 
brokers may be targeting policyholders who are particularly 
vulnerable to abusive sales practices, including seniors and 
the seriously ill. We will consider possible issues raised by 
the business model of creating securitized pools of life 
settlements, how that model relates to the interest of 
investors, and what kinds of fees are generated for 
securitizers. We also will consider whether securities 
offerings that purport to rely on exemptions from registration 
under the Federal Securities laws are doing so properly.
    Life settlement issues draw on the expertise of regulators 
throughout the United States. Thus, Chairman Schapiro has asked 
the task force to reach out to regulators and other interested 
parties to coordinate regulatory efforts and analyze whether 
gaps in oversight exist that could be filled through 
legislation or other action.
    By incorporating a multidisciplinary approach and working 
with fellow regulators and other interested parties, the Life 
Settlement Task Force will make a fresh in-depth analysis of 
the issues raised in the securitization and life settlements 
market so that we can make sure investors are informed and 
protected.
    Thank you again for inviting me to appear before you today 
and for the subcommittee's support of the agency at this 
critical time for the Nation's investors. I would be happy to 
answer any questions you may have.
    [The prepared statement of Ms. Dubberly can be found on 
page 51 of the appendix.]
    Chairman Kanjorski. Thank you very much, Ms. Dubberly.
    Next, we will hear from the Honorable Susan E. Voss, 
commissioner, Iowa Department of Insurance, on behalf of the 
National Association of Insurance Commissioners.
    Ms. Voss.

 STATEMENT OF THE HONORABLE SUSAN E. VOSS, COMMISSIONER, IOWA 
INSURANCE COMMISSION, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
                    INSURANCE COMMISSIONERS

    Ms. Voss. Chairman Kanjorski, Ranking Member Garrett, and 
members of the subcommittee, thank you for this opportunity to 
testify at today's hearing.
    My name is Susan Voss and I am the commissioner of the Iowa 
Insurance Division. We have jurisdiction over insurance and 
securities regulation through my division. I am also the vice 
president of the National Association of Insurance 
Commissioners, and I am here today on behalf of the fellow 
regulators of the NAIC. I want to commend the subcommittee for 
today's hearing assessing the impact of securitization on life 
settlements.
    The first life insurance settlement was developed as a 
viatical settlement during the 1980's in response to the HIV/
AIDS patients who wished to sell their life insurance policies 
in order to raise much-needed funds for personal and health 
care expenses. Today, the marketplace has expanded to roughly 
$3 billion to $4 billion annually, so that individuals who no 
longer need or want their coverage for economic or personal 
reasons can sell their policies as an alternative to 
surrendering it for its cash value or letting it lapse.
    Life settlements are necessary transactions for some 
consumers, but they require appropriate regulation with a focus 
on disclosure and consumer protection. As such, nearly all 
States have moved to pass regulations or laws specifically 
establishing strong oversight of life settlement transactions. 
But it is important to note that all States have the authority 
to protect consumers from fraud and misrepresentation in this 
area.
    All State insurance regulators enforce licensing and form 
requirements and have examination enforcement authority and 
require mandatory disclosures to the consumers about his or her 
rights. This oversight is critical, particularly as stranger-
originated or owned life insurance, or STOLI, has emerged in 
recent years. Under STOLI, investors solicit a healthy and high 
net worth individual, who is typically at least 70 years of 
age, to obtain a life insurance policy with a certain minimum 
death benefit. The individual buys the insurance with the 
specific intent of selling it to those investors. And after a 
minimum period of incontestability ends, ownership of the 
policy is transferred in exchange for a taxable lump sum. The 
investors then receive the death benefit when the insured 
individual dies.
    This concept violates State insurable-interest laws that 
require a direct interest and relationship between a 
policyholder and beneficiary, but it is difficult to determine 
a policyholder's true intent when purchasing a policy, making 
it challenging to distinguish between STOLI and a legitimate 
life insurance settlement.
    As such, the States are implementing requirements to target 
the timing of these transactions to make them unappealing to 
would-be STOLI investors while preserving a policyholder's 
right to sell his or her policy. Likewise, insurers are 
improving their underwriting guidelines to better determine a 
policyholder's intent when purchasing life insurance.
    As you can see, State regulators already conduct 
significant oversight of life settlement transactions. However, 
the concept of securitizing life settlements is a relatively 
new phenomenon. While such securitization is outside the 
jurisdiction of insurance regulators, we are concerned that 
securitization of life insurance settlements would incentivize 
would-be STOLI investors to attempt to expand the marketplace, 
much as securitization of mortgages helped dramatically expand 
that marketplace.
    It is also important to note that life settlements in 
general and securitization of them in particular would diminish 
the number of life insurance policies that would otherwise 
lapse, requiring insurers to raise their premiums.
    Finally, we would want to ensure that any securitization of 
life insurance settlements does not compromise the original 
policyholder's rights and privacy. We commend the SEC for 
creating their agency-wide task force regarding life 
settlements, and we would like to work with them on this 
critical issue. This issue is a clear example of where 
securities and insurance regulators need to work 
collaboratively to ensure that policyholders and investors are 
informed and protected.
    Mr. Chairman, thank you again for the opportunity to 
testify before this subcommittee, and I welcome any questions. 
Thank you.
    [The prepared statement of Ms. Voss can be found on page 97 
of the appendix.]
    Chairman Kanjorski. Thank you very much, Ms. Voss.
    And now, Mr. Green of Texas will introduce our next 
witness.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman. I thank you for 
allowing me to be a part of the subcommittee.
    I am honored today, Mr. Chairman, to introduce Mr. Brian 
Pardo, who is the founder, the president, the chief executive 
officer, as well as the chairman of the Board of Life Partners 
Holdings. He is also a person who has served his country, 
having been a veteran in the Vietnam war.
    Mr. Chairman, I believe we will find his testimony to be 
informative, insightful, and engaging.
    And I will yield back to you, Mr. Chairman.
    Chairman Kanjorski. We are a little out of order here, but 
that is the way it goes. We will be right back to Mr. Dorsett.
    Mr. Pardo.

   STATEMENT OF BRIAN D. PARDO, CHAIRMAN AND CHIEF EXECUTIVE 
             OFFICER, LIFE PARTNERS HOLDINGS, INC.

    Mr. Pardo. Thank you, Mr. Chairman, and Ranking Member 
Garrett. It is a privilege for me to be here. It is a privilege 
to be here to provide you with our company's insight into the 
need, especially in today's financial environment, for uniform 
regulations with Federal oversight of this asset class to 
provide older Americans unimpeded access to the market and to 
provide investors with a reliable asset-based investment which 
is not correlated to financial markets and/or other types of 
indices. I am going to skip part of this.
    The severe recession and the meltdown has caused severe 
financial problems, especially in IRA, 401(k), and other 
retirement accounts for senior Americans. The purpose of life 
settlements as we see it is simply to provide these people 
access to cash many never knew was available to them. Of all 
the life insurance in force today, only approximately 8 percent 
make up these kinds of policies. So we do not see that this is 
a problem to the life insurance industry. These special-purpose 
policies are usually universal life policies. Since they are 
not purchased for wealth accumulation, policyholders usually 
only pay a minimum amount of premiums to keep their policies in 
effect. The surrender value on these types of policies is 
typically 1 percent or less of the value of the policy.
    The Wall Street Journal reported last fall that, with a 
life settlement, policyholders can typically net more than is 
available by surrendering a policy to the insurer for a lump 
sum payment, or in the case of letting it go entirely, letting 
it lapse, in other words, getting nothing for it.
    This has been a policyholder's right since the 1911 court 
ruling of Grigsby v. Russell, which allowed people to sell 
their life insurance policies and consider life insurance 
policies personal private property. And along that regard, I 
would like to point out that as a personal property asset, the 
sale of this asset has been ruled by the courts as not the 
business of insurance.
    Currently, life settlements are regulated by a patchwork of 
State insurance departments. Each claims jurisdiction to 
regulate the transactions with inconsistent and frequently 
conflicting statutes which vary from State to State. Some 
States have regulations which effectively prevent insurance 
consumers from any access to the secondary life insurance 
market, while a few have no regulations at all.
    Life Partners is domiciled and registered in the State of 
Texas, and as a life settlement provider, we are licensed and 
regulated by the Texas Department of Insurance. All forms are 
approved and require us to file annual copies.
    On top of that, the lack of uniformity in State regulation 
creates another problem. A lot of times the participants in the 
life settlement transaction may involve persons or entities 
throughout the United States. For example, the life settler who 
may be selling the policy may be a trust under the laws of New 
York with a trustee in Connecticut, while the insured may live 
in Arizona. Determining which State has jurisdiction over the 
transaction can be very confusing. Federal oversight regulation 
can remedy this problem.
    Life settlement transactions are not derivatives, and when 
the investor actually obtains ownership of the policy or a 
fraction of the policy, life settlements are not a security 
either, as the lady pointed out here. It is merely an 
assignment of the value of a contract right. However, as with 
many types of assets, the securitization of life settlements is 
very possible, and indicated by the recent news articles in the 
Wall Street Journal, Wall Street is looking at life settlements 
as a replacement for mortgage-backed securities.
    This is nothing particularly new. In 2000 through 2003, the 
industry--Wall Street, that is, opted out of this class because 
it couldn't see how to transform it into a derivative. To the 
extent life settlements are bundled and transformed into 
derivative securities, they would be subject, of course, to the 
statutes and regulations governing securities.
    In order to provide older Americans with unfettered access 
to the valuable secondary market for the life insurance 
policies, a uniform minimum level of Federal regulation for 
life settlement transactions in the United States, in our 
opinion, is advisable. Life insurance and settlement providers 
should not shy away from Federal regulation. Life Partners 
actually went public in 2000, not to raise capital, but to 
voluntarily bring itself under meaningful oversight and 
regulation required by public companies. We are the only public 
company as a life settlements provider in the United States, 
and as such, we are subject to the reporting requirements of 
the SEC, including those rules mandated by the Sarbanes-Oxley 
Act of 2002.
    I strongly believe that Federal law should set a minimum 
standard for State regulation of life settlements. If a State 
does not provide at least this minimum level of regulation, I 
believe that the new U.S. Consumer Financial Protection Agency 
should supervise life settlement activity in that State, 
because life settlement transactions are not the business of 
insurance but rather a financial asset transaction, so they do 
not constitute the business of insurance. Thus, any Federal 
regulation of life settlements does not run afoul of the public 
policy expressed in the McCarran-Ferguson Act.
    Thank you very much, and I will certainly be happy to 
answer any questions.
    [The prepared statement of Mr. Pardo can be found on page 
85 of the appendix.]
    Chairman Kanjorski. Thank you very much, Mr. Pardo.
    And next, we will hear from Mr. J. Russel Dorsett, co-
managing director of Veris Settlement Partners, on behalf of 
the Life Insurance Settlement Association.
    Mr. Dorsett.

 STATEMENT OF J. RUSSEL DORSETT, CO-MANAGING DIRECTOR OF VERIS 
SETTLEMENT PARTNERS, ON BEHALF OF THE LIFE INSURANCE SETTLEMENT 
                          ASSOCIATION

    Mr. Dorsett. Good afternoon, Chairman Kanjorski, Ranking 
Member Garrett, and members of the subcommittee.
    My name is Russel Dorsett, and I am delighted to have the 
opportunity to appear before you representing the Life 
Insurance Settlement Association, or LISA. LISA is the oldest, 
largest, and most inclusive body serving the life settlement 
industry, and it is an honor and a privilege to serve as LISA's 
president.
    LISA's mission is to promote an orderly and transparent 
marketplace, sound regulation, and best practices to enable 
well-informed consumers to maximize the value of a financial 
asset, a life insurance policy which is no longer needed, 
wanted, or in some cases, affordable. LISA members hold nearly 
75 percent of all the provider licenses which have been issued 
by the State regulators.
    The average life settlement pays policy owners 4 to 6 times 
the policy's cash value. Over the past decade, the life 
settlement industry has delivered to policy owners 
approximately $6 billion above what they would have received 
had they simply lapsed or surrendered their policy. In doing 
so, we have made it possible for these policy owners to better 
afford retirement, medical care, or simply to enjoy the 
lifestyle they have earned.
    Life settlements are not about Wall Street. They are about 
a consumer's property rights. A famous decision in 1911 
authored by Justice Oliver Wendell Holmes affirmed the right of 
a legitimate policy owner to treat their policy as financial 
property and to sell to the highest bidder if they so desire.
    This appearance is occasioned by the committee's concern 
that the growth of the secondary market and the potential for 
securitizations might somehow be seized upon by Wall Street's 
rocket scientists and grow to the point where it constitutes a 
systemic threat to the American economy or to the health of the 
life insurance industry. We are a niche residing rather 
uneasily between two colossuses, the institutional capital 
markets and the life insurance industry. In comparison to 
either, the life settlement market is miniscule. In the best of 
times, perhaps $3 billion to $4 billion of capital was actually 
employed to purchase policies, which might translate to $10 
billion to $12 billion in face amount purchased in any one 
year. While this is certainly not an inconsequential sum, it is 
tiny in comparison to the $20-plus-trillion mortgage market or 
the life insurance industry, which has some $19 trillion of 
face amount in force; we think about $10 trillion of that is 
individual policies.
    Consumers attempting to utilize the life settlement option 
have suffered from the current financial crisis. Completed life 
settlement transactions during calendar year 2009 will, at 
best, approach 50 percent of those completed in the prior year 
primarily due to the dearth of investment capital available to 
purchase policies. In the 5 years preceding the financial 
crisis, however, the secondary market did experience sustained 
growth driven both by increased awareness on the part of 
consumers that such an option existed and the undeniable appeal 
of life settlements as an asset class.
    Securitization of life settlements has been a topic of 
considerable interest for some time, but the number of 
transactions actually completed can be counted on one hand, in 
fact, with several fingers left over.
    Demographic trends alone make it certain that more and more 
Americans will find themselves in a position where a life 
settlement becomes a valuable option. But a viable market 
requires both willing sellers and credible buyers. To the 
extent the securitizations are underwritten in a financially 
sound and transparent manner and, in so doing, increase the 
capital available to purchase unaffordable, unneeded, or 
unwanted life insurance policies, we cannot help but believe 
that both social and economic utility are indeed enhanced.
    Even under the most optimistic growth scenarios, only a 
very small fraction of the insured population would ever 
qualify as a candidate for a life settlement, and the total 
face amount of policies purchased is unlikely to even approach 
$200 billion over the next decade. While this is a substantial 
sum, it is several orders of magnitude away from the potential 
for creating systemic problems comparable to those experienced 
in the mortgage markets.
    The potential impact of life settlements on insurers is 
also negligible, and the settled policies are unlikely to 
approach even a fraction of 1 percent of the insurance enforced 
over the foreseeable future.
    We believe that life insurance contributes greatly to 
society at large. It is a well recognized engine for wealth 
creation, and it helps to foster a culture of self-reliance and 
planning for the future. A secondary market for those policies 
which become at some point unneeded or unwanted enhances the 
already tremendous value proposition that life insurance 
represents. It will result in more people buying more policies 
and keeping them for longer. Should their health decline or 
they reach an age where they need the money now rather than 
later, the life settlement option can provide funds to meet 
their needs at a time when other assets may have been depleted 
or declined in value due to adverse market conditions.
    Thank you again for the opportunity to appear before you 
today, and I will happy to answer any questions that anyone 
might have. Thank you.
    [The prepared statement of Mr. Dorsett can be found on page 
43 of the appendix.]
    Chairman Kanjorski. Thank you very much, Mr. Dorsett.
    Next, we will hear from Mr. Jack Kelly, director of 
government relations at the Institutional Life Markets 
Association.
    Mr. Kelly.

 STATEMENT OF JACK KELLY, DIRECTOR OF GOVERNMENT AFFAIRS, THE 
             INSTITUTIONAL LIFE MARKETS ASSOCIATION

    Ms. Kelly. Thank you, Mr. Chairman.
    Thank you, Mr. Garrett.
    My name is Jack Kelly. I serve as director of government 
affairs for the Institutional Life Markets Association, ILMA, a 
trade association comprised of a number of the world's leading 
institutional investors and intermediaries in the longevity 
markets. Our members include Credit Suisse, EFG Bank, Goldman 
Sachs, JP Morgan Chase, Mizuho International, and WestLB.
    ILMA was formed 2 years ago to create best practices and to 
encourage transparency and standardization of documentation, 
and to encourage and educate consumers and investors and 
policymakers about the benefits of longevity-related 
marketplace. ILMA members, through lending or by direct 
purchase, have provided consumers in excess of $2.9 billion 
through purchases of life insurance policies no longer needed 
by the owners.
    ILMA's first action was the creation of the Life Settlement 
Transaction Disclosure Statement that clearly discloses the 
amount of money consumers receive when they sell their life 
insurance policy, and how much money their broker will receive 
in the transactions. ILMA has advocated in every State that has 
considered life settlement legislation to adopt this form. It 
has also created a set of uniform HIPAA-compliant release forms 
to ensure the participants in the market use forms that protect 
the identity and the personal privacy records of individuals.
    It is difficult to determine the actual size of the life 
settlement market. An upcoming report by Conning Research 
concludes the value of policies settled in 2008 to be $12 
billion, and at the end of 2008, approximately $31 billion of 
policies will be in force. They conclude, by 2011 and 2012, the 
market will reach a saturation point with an annual growth 
after that of 2 percent to 3 percent. Compare this to the 
almost $20 trillion to $25 trillion in force today of life 
insurance. The size of the life settlement market is less than 
miniscule.
    Recent news reports have advanced the story that the 
capital markets have initiated an effort to issue rated 
securitization of life settlements. I think it is important to 
distinguish between facts and speculation in this reporting.
    As for life settlement securitizations, there have only 
been two rated life settlement securitizations reported: In 
April 2009, an internal company transaction by AIG that was 
valued at $2 billion and rated by A.M. Best. This capital 
relief transaction was done in part to reduce some of AIG's 
ongoing borrowing from the Federal Reserve by $1.2 billion.
    In 2004, Legacy Benefits Corporation concluded a Moody's 
rated securitization that included both life settlements and 
annuity assets. Since these are the only known transactions, it 
brings to question why suddenly there is such increased 
attention to the securitization of life settlements.
    As the use of securitization by the insurance industry is 
widespread, it is only reasonable that such a tool would be 
explored for life settlements. In fact, Frank Keating, the 
president of ACLI, recently stated: ``Securitization of life 
insurance policies transferred to third parties is not 
necessarily a bad thing.''
    The analogy presented by some that life settlement 
securitization is the next subprime crisis is completely 
inaccurate. The most significant participants in mortgage 
transactions are the homeowner and the investor. Securities 
that were linked to subprime mortgages relied on a continued 
stream of payments by the homeowners. When homeowners failed to 
make payments, the securitizations failed, resulting in two 
losers, the homeowner and the investor.
    In a life settlement securitization, an investor buys a 
security backed by a pool of insurance policies that have been 
settled. It is critical to note that the original owners of the 
insurance policies are paid in full for the policy at the time 
their ownership is transferred. They have no further financial 
participation in the process and cannot be adversely impacted 
as a result of the securitization. If the life settlement 
securitization fails, the only loser would be the investor, 
which is the case in all investments, and there would be no 
financial impact on the insured or any original policy owner. 
Accordingly, such investments would only be suitable for 
institutional investors who can analyze and understand the 
risks.
    ILMA's position is that life settlement transactions should 
be regulated to ensure that the consumer is protected and 
informed about the impact of such transaction, and we have 
argued for these protections in every State. As life 
settlements are regulated by State insurance regulators, there 
is a lack of uniformity in the laws governing these 
transactions. ILMA seeks the adoption of uniform laws and 
including all requirements of that uniformity.
    We look forward to working with you, Mr. Chairman, and the 
members of the committee, and thank you for your time today.
    [The prepared statement of Mr. Kelly can be found on page 
73 of the appendix.]
    Chairman Kanjorski. Thank you, Mr. Kelly.
    And next, we will hear from Mr. Kurt Gearhart, global head 
of regulatory and execution risk, Life Finance Group, Credit 
Suisse.
    Mr. Gearhart.

   STATEMENT OF KURT GEARHART, GLOBAL HEAD OF REGULATORY AND 
       EXECUTION RISK, LIFE FINANCE GROUP, CREDIT SUISSE

    Mr. Gearhart. Thank you.
    Good afternoon. My name is Kurt Gearhart, and I am Credit 
Suisse's global head of regulatory and execution risk in the 
firm's Life Finance Group. The Life Finance Group employs 
approximately 90 professionals, and the group's mandate is to 
intermediate mortality and longevity risk.
    Credit Suisse has been an active participant in 
securitization markets, with considerable experience with 
insurance securitizations. Based on this experience, we would 
like to make three points today:
    First, insurance securitizations are nothing new. And, as 
described in our written testimony, there are various types of 
securitization structures that have been used by the life 
insurance industry, with none of the experiences of the 
mortgage markets. Securitizing life settlements would be 
similar to other traditional insurance securitizations. Credit 
Suisse has never in fact done a life settlement securitization, 
so we have no direct experience to offer in that area.
    Second, Credit Suisse conducts its life settlement business 
in complete conformity to industry best practices. We have been 
a leader in creating industry best practices, and we believe 
that they protect consumers as well as institutional investors.
    Finally, Credit Suisse welcomes greater Federal regulation 
of life settlements. We would be pleased if a strong Federal 
regulator, such as the SEC, were given jurisdiction over life 
settlements.
    We appreciate the committee's invitation to be here today, 
and our discussion will be divided in three parts: life 
settlements; life insurance securitizations and Credit Suisse's 
activity in life settlements; and the regulation of life 
settlements and life settlement securitizations.
    Life insurance securitizations. I think that it is 
important to understand that securitization of longevity and 
mortality risk is not a new concept. Over the last decade, 
insurance companies have securitized these risks in closed 
block; redundant reserve; embedded value; and extreme mortality 
securitizations, as described in our written testimony.
    Although Credit Suisse has never done a life settlement 
securitization, they would be similar to other life insurance 
securitizations. The only difference is that a life settlement 
provides income to consumers rather than to the life insurance 
companies themselves.
    The reality is that there have been very few life 
settlement securitization deals. And although we expect the 
securitization market to be relatively small, we believe that a 
potential securitization market can be good for consumers and 
institutional investors.
     For consumers, securitization will bring two primary 
benefits. First, increased liquidity to the life settlement 
market will result in higher cash offers for policy. Second, 
securitizations would ensure the protection of the insured's 
privacy as institutional investors will not have access to any 
information that would allow them to identify the insureds.
    For institutional investors, life settlement 
securitizations provide a tool for portfolio diversification 
and satisfy demands for investments that are not dependent on 
capital markets.
    The next topic I will discuss is Credit Suisse's activity 
in life settlements. Credit Suisse began participating in life 
settlement market in 2006, initially by purchasing policies 
through third-party life settlement providers. In 2007, we 
formed our own licensed life settlement provider to purchase 
policies. We opted to form our own platform to ensure the 
quality of the policies we acquired and to provide adequate 
protection to policy sellers. We employ numerous best practices 
in our business, including requiring policy sellers to be 
represented by an adviser, providing comprehensive disclosures 
to policy sellers and insurers that identify all the risks and 
alternatives to life settlements, and disclose all the 
transaction fees paid to third parties so the consumer knows 
exactly how much we are paying for their policy. And, we 
conduct closing interviews with both the policy sellers and the 
insureds to ensure that they understand the substance and 
economics of the transaction.
    Credit Suisse has paid approximately $500 million more to 
seniors than they would have otherwise received by surrendering 
their policies to the insurance companies. On average, we pay 
policy sellers approximately 10 times more than the cash 
surrender value offered by the insurance companies.
    Seniors typically sell their policies to Credit Suisse 
because premiums become unaffordable, or because they need 
funds for health care, retirement, or other purposes. We manage 
and distribute the mortality and longevity risk with 
sophisticated institutional investors, including insurance 
companies, reinsurance companies, fund managers, and pension 
funds. We employ rigorous risk management practices to limit 
the amount of exposure we have in the life settlement business.
    Finally, I would like to discuss the regulation of life 
settlements and life settlement securitizations. Life 
settlements securitizations would be securities subject to SEC 
regulation. They would also be subject to any general 
securitization reforms currently being considered by Congress. 
The acquisition of life insurance policies from policy sellers 
is currently regulated at the State by State insurance 
departments. We have worked with the NAIC, NCOIL, and States on 
life settlement regulation.
    Today, 35 States regulate life settlements. Notwithstanding 
the efforts of the NAIC, NCOIL, and State regulators, consumers 
in 15 States still have no regulatory protection. The State 
regulatory model has led to a patchwork of inconsistent 
regulation, and this is confusing to consumers and impacts the 
effectiveness of regulation.
    We have implemented a variety of best practices in our life 
settlement business to protect consumers regardless of whether 
required by State law. We do this because we value our 
reputation and because it protects our institutional investors 
who do not want to own assets that were acquired with abusive 
practices. Credit Suisse would support Federal regulation and 
oversight of this business by the SEC or another Federal 
regulator as a means to provide greater protection to policy 
sellers, insureds, and investors.
    To close my testimony, I would like to restate our three 
primary points: First, life insurance securitizations are 
nothing new, and while Credit Suisse does not have direct 
experience, any application of securitization practices to life 
settlements should be the same as traditional life insurance 
securitizations; second, we believe strongly in the 
implementation of industry best practices; and third, we would 
welcome strong Federal regulation from the SEC or another 
appropriate Federal agency.
    Thank you for the opportunity to appear today. And I will 
be happy to answer any questions that you may have.
    [The prepared statement of Mr. Gearhart can be found on 
page 63 of the appendix.]
    Chairman Kanjorski. Thank you very much, Mr. Gearhart.
    Next, we will hear from Mr. Steven H. Strongin, managing 
director and head of Global Investment Research, Goldman, Sachs 
& Company.
    Mr. Strongin.

STATEMENT OF STEVEN H. STRONGIN, MANAGING DIRECTOR AND HEAD OF 
        GLOBAL INVESTMENT RESEARCH, GOLDMAN, SACHS & CO.

    Mr. Strongin. Chairman Kanjorski, Ranking Member Garrett, 
and members of the subcommittee, we thank you for inviting us 
to present our thoughts on recent innovations in the 
securitization market and their impact on the financial crisis. 
We hope our thoughts prove helpful.
    Mr. Green. Sir, would you pull your microphone a little 
closer, please?
    Mr. Strongin. Is that better? Okay.
    I am head of Global Investment Research at Goldman Sachs. I 
have been involved either directly or indirectly with the 
securitization markets since starting at the firm 15 years ago, 
as well as during my tenure at the Federal Reserve in the 12 
years prior to that. I am pleased to answer your questions on 
behalf of the firm regarding the securitization market and, 
more specifically, the life settlement and life settlement 
securitization markets.
    Before delving into detail on these topics, I would note 
that Goldman Sachs has never executed a life settlement 
securitization. We currently have no client mandates or plans 
to execute one.
    In addition, the life settlement business is very small. We 
estimate that our total investment in this space represents a 
small fraction of the total capital in the market and is very 
small relative to what several of our large institutional 
competitors have invested. The business is also very small as a 
percentage of the firm's total business at considerably less 
than one-tenth of 1 percent.
    As Goldman Sachs has not executed any life settlement 
securitizations, we cannot offer any experience-based view of 
the life settlement securitization market, but we do not 
believe it poses systemic risks. It is small, unlikely to grow 
rapidly, and it is also unlikely to impact things like lending 
standards, which can have far-reaching economic consequences.
    We believe that the life settlement market offers 
significant positive benefits to the insured facing changing 
circumstances. That said, it could also have the potential for 
consumer abuse. Hence, we would emphasize the need to address 
consumer-protection-related issues in this market rather than 
systemic ones.
    We do have significant experience in other securitization 
markets. Based on that experience, we see a few key areas where 
securitizations, particularly mortgage securitizations, 
increased systemic risk and contributed to the financial 
crisis. We believe that the rules and regulations related to 
securitization need to be changed to address these problems.
    Specifically, some financial firms used the relatively 
favorable rules around securitization to reduce the capital 
held against poor quality loans. They also made their balance 
sheets appear healthier than they were by reporting they were 
holding ``good'' public securities rather than the high-risk 
loans underlying these securities. This was true even for 
securities that had never actually been sold in a market, but 
were instead simply repackaged and relabeled with the help of 
ratings agencies. In some cases, these rules even allowed firms 
to make risks disappear entirely from their balance sheets.
    These abuses led to wholesale concerns about the balance 
sheet integrity of all financial firms, regardless of whether 
they had engaged in such practices or not, and greatly 
contributed to the panic at the peak of the crisis. They also 
drove the need for widespread massive governmental assistance 
for even the most healthy of financial firms.
    To address these issues and to make the financial system 
more robust to financial shocks, as well as to reduce the 
future need for government assistance in times of stress, we 
think that securitizations should only qualify for favorable 
regulatory treatment after significant parts of all risk 
tranches have been sold to a true third party. To prevent 
misreporting of risk exposures, large financial holding 
companies should consolidate all assets and liabilities onto 
their balance sheets and mark those assets to market.
    Further, to prevent the regulatory and accounting arbitrage 
that allowed massive under- and unreported risks to build and 
inflated profits to be reported, the rules around affiliate 
transactions should be strengthened. Specifically, assets 
should not be permitted to be held off balance sheet, and firms 
should not be allowed to cross-subsidize business across 
regulatory or accounting boundaries. We believe these changes 
in rules would go a long way toward reducing systemic risk.
    Thank you. And I look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Strongin can be found on 
page 92 of the appendix.]
    Chairman Kanjorski. Thank you very much, Mr. Strongin.
    Finally, we will hear from Mr. Daniel Curry, president of 
DBRS, Incorporated.
    Mr. Curry.

        STATEMENT OF DANIEL CURRY, PRESIDENT, DBRS, INC.

    Mr. Curry. Thank you, Chairman Kanjorski, Ranking Member 
Garrett, and members of the subcommittee. My name is Dan Curry, 
and I am president of the U.S. subsidiary of DBRS, one of the 
registered credit rating agencies.
    Securitizations in the mortgage and credit markets 
contributed significantly to the recent global financial 
crisis. As the markets continue to recover, policymakers, 
regulators, and market participants must understand what went 
wrong and take appropriate action to ensure that past mistakes 
are not repeated.
    However, because our financial markets thrive on 
innovation, we must also recognize that a regulatory 
environment that prohibits new investment products will 
ultimately impede rather than enhance the health of our 
economy. Fostering innovation while limiting unnecessary risk 
is a delicate task. DBRS commends the subcommittee for tackling 
this challenge in the area of securitization of life 
settlements.
    My testimony today will focus on three areas: An overview 
of the life settlement securitizations; the role of rating 
agencies in this market; and suggestions for prudent 
regulation.
    To the best of our knowledge, the volume of life settlement 
securitizations has been relatively low and sporadic. However, 
there are several factors which may stimulate growth in the 
coming years. These include longer life spans, the decrease in 
defined benefit retirement plans, and other factors that may 
force older Americans to seek alternative sources of cash. 
Growth may also be spurred by increased interest in such 
products by institutional investors.
    The role of a credit rating agency in a life settlement 
securitization is to issue an opinion about the ability of a 
transaction to repay principal and interest on bonds sold to 
investors. These agencies do not purchase or arrange for the 
purchase of life insurance policies nor do they structure, 
underwrite, or sell life settlement transactions.
    Because responding to market proposals is a core part of 
part of the service we provide, last year, DBRS published the 
methodology for rating U.S. life settlement transactions. This 
methodology, which is publicly available on our Web site, calls 
for both quantitative and qualitative approaches to review in a 
life settlement securitization. It does not, however, involve 
the creation of mortality indexes; instead, we rely on publicly 
available third-party mortality tables.
    Although DBRS has reviewed 14 proposals for life settlement 
transactions, so far we have not rated any of these deals, and 
our market share remains at zero percent. Only two of these 
transactions are currently under active review.
    Now, I would like to offer some ideas on prudent 
regulation. The turmoil in the securitization markets arose 
from a number of factors involving mortgage brokers, 
appraisers, homebuyers, underwriters, issuers, arrangers, and 
investors. Of course, rating agencies also were to blame since 
their methodologies and models failed to keep pace with the 
products rated, and the rating process at times lacked 
transparency.
    DBRS believes that the lessons learned from the recent past 
can form the basis for a prudent regulatory basis for life 
settlement securitizations. First, there must be a focus on 
consumer protection, including mandatory licensing of parties 
who buy policies and robust disclosure of information about 
those transactions. On the securitization front, those who 
structure life settlement transactions should be required to 
retain a portion of the risk arising from such details. This 
would align their interests with those of investors and promote 
safety and soundness in the life settlement market.
    DBRS also believes that investors should be given the 
information they need to make informed decisions about 
purchasing life settlement securities.
    We are pleased that the SEC has established a life 
settlement task force and we look forward to working with them 
in this area.
    Finally, we believe that the regulatory regime established 
and still being refined under the Credit Rating Agency Reform 
Act of 2006 is well suited to ensure the quality, integrity, 
and transparency of the credit ratings on life settlement 
products.
    Thank you. I look forward to answering your questions.
    [The prepared statement of Mr. Curry can be found on page 
36 of the appendix.]
    Chairman Kanjorski. I think we will take my questions, and 
then we will move on.
    Ms. Dubberly, the task force the SEC is putting together 
and taking on, has there been a full examination made of what 
authorities under the law you have to regulate these entities, 
and do you need any further action by the Congress?
    Ms. Dubberly. Thank you, Congressman.
    That is one of the issues we will be looking at. The 
chairman has directed us to take a broad look at this entire 
area and to see if we think there are some types of regulatory 
gaps between, say, State regulation or Federal securities law 
regulation. We certainly haven't completed that task yet, but 
that is one of the mandates of the task force.
    Chairman Kanjorski. There is no question, you feel you are 
considering this as a security as opposed to insurance; is that 
correct?
    Ms. Dubberly. When you take life settlements and you pool 
them and you securitize it, there is absolutely no question 
that is a security.
    The issue of life settlement, a participation in life 
settlement, the Commission has also taken the position that 
that is a security as an investment contract. A separate, just 
standalone life settlement would be a different question.
    Chairman Kanjorski. Very good.
    How many people think we are being premature in even 
holding this hearing, and that we should put in any time or 
effort into this question? Or is it a question that should be 
before the Congress at this time?
    Could you show your hands? Those who think we should be 
pursuing this, could you raise your hands?
    Okay. Those who think we should not be pursuing it?
    There is a recent article in Der Spiegel magazine 
indicating that there is some disappointment among German 
investors that Americans are not dying fast enough.
    Do you think we should alleviate that risk and take some 
action to discourage that bad feeling? That could cause 
international implications.
    But seriously, I am interested--if we go to securitizing 
death settlements, what would be the outer limits of what we 
will securitize?
    Does anybody want to take that question?
    Mr. Kelly. What would the value be? Are you trying to say 
the value?
    Chairman Kanjorski. No. What areas should we not 
securitize?
    I mean, I humorously in my opening statement mentioned the 
fact that we could probably structure a policy to involve 
divorce. But would it be wise and good public policy to do 
that? Or if there is an enterprising individual who at every 
wedding day wants to issue the odds that the marriage will last 
to 50 percent in 5 years, and lesser percentages thereafter, 
and then we could bet on whether it will last a lifetime.
    Is that good policy, or are we causing some innate 
destruction to some reasonably good values in our society?
    I just throw it out to you. My compass is twirling; I want 
to get it set.
    Mr. Kelly. One of the things, Mr. Chairman, I think that 
you are saying, is the fundamental question about insuring 
risk; is that correct?
    Chairman Kanjorski. If you look at it as only insurance of 
risk in the product, the result.
    Mr. Kelly. But ultimately that is what the insurance 
markets do.
    Chairman Kanjorski. But everything can be reduced to risk, 
can it not?
    What is the risk that I will get 21 at a blackjack table?
    Mr. Kelly. Actually, on the top of the table it says the 
insurance line when you make your bet.
    Chairman Kanjorski. Should we securitize that bet?
    Mr. Kelly. I think the insurance industry has used models 
with securitization on a regular basis, and where it is 
appropriate, they have found a need for it. We have seen that 
in the many examples that were provided here today with closed 
block, with CAT bonds, with mortality CAT bonds.
    So there are any number of insurance options that are 
securitized now, and they are securitized at the juncture that 
they have a value to the underlying risk that they are 
securitizing.
    Chairman Kanjorski. I want to throw this out:
    Just before I came here, I was making a speech downtown to 
a group of regulators; and as we were leaving, I posed the 
question to my staff--they have not given me a full answer 
yet--but has anybody securitized or made life settlements on 
key man insurance on corporations where the key man has already 
left the corporation and is no longer there? And if you 
securitize that, how close is that to not having an insurable 
risk?
    I understand corporations can keep the insurance policy 
even if the person the policy is on has left the corporate 
interest, which shakes me up a little bit.
    Mr. Kelly. It goes back to the fundamental fact that there 
have only been two known securitizations of life settlements 
and neither has included a key man life.
    Chairman Kanjorski. But you think it could?
    Mr. Kelly. I didn't say I think it could. I said it has 
never occurred at this juncture.
    Mr. Pardo. I think the multitude of transactions that we 
see, in general, whether they are securitized or not, once the 
policy has been sold by the insurance company to the initial 
insured, the insured--since 1911--then has the right to do what 
he wants to with that. If you take away the insured's right to 
sell that policy through some mechanism, then you are depriving 
him of his private property, his right over private property.
    Chairman Kanjorski. But that is all dependent upon if he 
has an insurable interest on whomever he has bought the policy 
for.
    Mr. Pardo. The insurable interest goes to the original 
purchase of the policy. I can't take out one on your life and 
you can't take one on mine.
    Chairman Kanjorski. You could at one time in the United 
States.
    Mr. Pardo. That was before 1881.
    Chairman Kanjorski. Right. We may be able to get you to--is 
it Antigua? They are selling policies on other people's lives. 
We can find a jurisdiction in the world that is going to do 
incredible things, and you will find that they will write a 
policy on somebody's life where you have no insurable interest.
    Now assuming that they did that, the question is, should 
that be able to be securitized and is that good public policy?
    Mr. Pardo. I don't think anybody involved in the industry 
or anybody sitting at this table would even consider looking at 
buying a policy like that, because obviously you would have 
problems down the road. So it would solve itself; it is just 
not an issue that is going to arise.
    The primary issue that I think we should be concerned with 
is this patchwork of regulation between the States that is 
inhibiting access to the market by seniors. Senior citizens are 
in desperate need of liquidity right now because of the market 
meltdown. And the one in 2001, don't forget also, that helped 
lead in to their problems. So suddenly they find out, gee, I 
can sell this policy and I can get back maybe 60 or 70 percent 
of what I have paid in--considerable amounts of money.
    Keep in mind that in our case, we buy for our clients, the 
average face value is $3.8 million. So these are not 
insignificant policies; these are large policies. They can get 
significant amounts of money, millions of dollars, and it means 
a lot to them.
    So we have to be careful that we don't take that right away 
from them, but we also have to have some clarity in the 
regulatory structure.
    Chairman Kanjorski. So I take it you are making a pitch 
for, if there is a Federal option for insurance, that we 
include life settlement insurance in the Federal charter?
    Mr. Pardo. I think there has to be some clarity in the law, 
and this patchwork of regulations has to be standardized in 
some form so that there is more access to the market. Because 
we are talking--this is a very strange set of situations when 
it comes to consumer law.
    What we have here is, the regulated party is the buyer. I 
am buying your insurance policy. Normally, in consumer law, you 
would be regulated; you are selling it. But actually in this 
case, we are being regulated. But we are the buyers. All of us 
sitting at this table are the buyers, so why are we being 
regulated?
    And in a large-scale transaction like this, where everybody 
is sophisticated--say the policy is over $500,000--nobody, I 
don't think, would disagree with me, here at this table or 
anywhere, that if we had more clarity in terms of the 
regulations--and I think only Federal, some Federal guidelines 
are going to straighten this out as to what the basic rules are 
so that we know that every State has a certain set of standard 
rules that are the same and not this patchwork of slight 
nuances and differences.
    And they may argue that we have the right to do what we 
want, and we have only made this minor little change over here, 
but this minor little change over here requires a fleet of 
lawyers to make sure that everybody is in compliance.
    So what we would like to see, as a company, and I am sure 
for securitization to get started, which is a good thing, I 
think, as long as they don't get carried away, is access to the 
market.
    Chairman Kanjorski. So what I gather is, if we move towards 
an optional Federal charter, you want us to make sure we 
include life insurance policies that are dealt with; and then 
also we want to discourage the use of lawyers in our system.
    Mr. Garrett?
    Mr. Garrett. Thank you.
    So basically we are talking about two different issues 
here. We are talking about the securitization issue and life 
settlement products in general.
    On the securitization issue, you can reiterate for me with 
regards to the SEC's position, as far as when you have 
securitization, the SEC's responsibility in that area is--
    Ms. Dubberly. The SEC has authority over the securities. A 
pool of life settlements is a security, so the offer and sale 
would come under their jurisdiction.
    To date, all of them have been offered privately, not in 
registered transactions. So we have less authority over the 
disclosure and private transactions than we do in registered 
transactions.
    Mr. Garrett. You do have some.
    Ms. Dubberly. We do have antifraud authority.
    Mr. Garrett. So the sale disclosure, marketing, fraud 
aspects of those, and if it is registered, then it is a 
complete line of authority that the SEC would have?
    Ms. Dubberly. They would have to comply with all of our 
disclosure rules.
    Mr. Garrett. So I was looking at the life settlement 
products issued, then, moving over to the next set of issues, 
since it sounds as though on the security side, when it is 
securitized and registered, we already have the SEC out there 
responsible. And we also found the SEC has set up the task 
force to look further, so looks like we are going in that 
direction. We will see what the end results are, and Congress 
can respond if they don't like the results.
    So the next step is the life settlement products aspect. 
The question there comes to a couple of them. And I will open 
this up to a couple of you to answer at the same time, with Ms. 
Voss being on the defensive end on one end of it and saying 
that things are confusing and inefficient when the State is 
involved on the one hand.
    But I always guess, on the other side, in light of all the 
morass that we have gone through and the problems we have gone 
through in the last 12 months, and you consider that, 
unfortunately, with all due respect, it was Federal regulators 
who were involved with things at the SEC and the other banking 
regulators where there are some problems there, I guess hope 
springs eternal that this time the Feds will actually get it 
all right when you defer to us to actually to get the 
regulations in this area.
    So, Ms. Voss, I know you wanted to--it looked like you 
wanted to make a point with regard to Mr. Pardo's comment.
    Ms. Voss. Thank you. I just want to clarify.
    Actually, 45 States have some specific regulation of life 
settlements; and I think we would readily admit that a life 
settlement transaction, in most cases, is an appropriate 
transaction, and nobody that is regulating at the State level 
wants to deny somebody their property rights.
    But we also want to make sure that consumers understand 
what they are doing with their insurance, that there is 
disclosure, and they know all of the information about how that 
transaction happens.
    Mr. Garrett. Mr. Kelly raised the point with regard to 
something out of the organization, the life settlement 
disclosure statement, which you have.
    And how many clients are members of the organization?
    Mr. Kelly. We have six institutional members of ILMA. And 
then we have five allied members.
    Mr. Garrett. And how much else out there?
    Mr. Kelly. On the institutional side, we represent 
probably, I would say, 70 percent of the institutional side 
that is active in this marketplace.
    Mr. Garrett. So you folks came up with the life settlement 
exposure document. That lays it all out there. That is 
something, as far as I understand from the NSC, you don't 
quite--haven't adopted that as complete disclosure; is that 
correct?
    Ms. Voss. We have some disclosures in the model log that 
States are looking at, and also--the National Conference of 
Insurance Legislatures also has a model. So States are looking 
at disclosure very carefully.
    Mr. Garrett. Is there something that Congress can do in 
this area--I don't like us to be the heavy hand on this thing--
but to encourage the States that take the proactive role on 
this, to go back and take a look at the--not to say that Mr. 
Kelly's organization has the 100 percent answer on these 
things, but to open the book up again, as this area begins to 
expand, to make sure that we are having as much transparency, 
particularly in the area as far as agents' compensation and all 
of that information?
    As you said, the consumers are really what you are trying 
to protect.
    Ms. Voss. You make a good point; and any time you want to, 
write us a letter and encourage those States who may not have 
not adopted the model.
    I am also very encouraged with the SEC. I just met with 
them this morning on a variety of issues, and I think by us 
getting together and talking about our concerns, as investors, 
we may come out with a joint agreement on how to, overall, 
protect consumers and regulate these products.
    Mr. Garrett. I will give Mr. Pardo 10 seconds.
    Mr. Pardo. I just wanted to say, Mr. Garrett, if you wrote 
that letter, you would be writing it to every single State 
because, to my knowledge, no State has adopted that act. They 
have adopted parts of the model act, but not all of the model 
act.
    We agree that disclosure is a good thing, but when we are 
talking about sophisticated investors, these are investors who 
are exempt by the SEC as accredited investors. People who own 
multimillion dollar policies, who have lawyers, who have access 
to professional help, don't want to be told by regulators, 
quite frankly, what to do with their assets.
    And so the ones below, say, $500,000, they do need a level 
of protection. But there is a group of people who do not--not 
only do not need it, but don't want it.
    Mr. Garrett. I see my time is up. I am going to ask one 
last question and that is on this line.
    Were the Congress to get involved in this area and try to 
set up some minimum levels in order to provide the consistency 
that--the argument always is, we need consistency across the 50 
States. The flip side of that, we often hear from--
particularly, depending on the issue--from one side of the 
aisle, is that going to be the floor or the max?
    So if you do it on the floor on this side and, for 
consistency, you may end up and you still allow the States, in 
due deference to the States, to say they can still put on X, Y, 
and Z as consumer protections, do you end up with the exactly 
what you want? Or do you end up with the worst of both worlds, 
the floor and also, still, 50 State regulators?
    Nothing against State regulators, but that is the argument 
on the other side of that, always.
    Mr. Pardo. My feeling from 19 years in the industry is that 
we have--the States have a pretty good regulatory system going. 
There is not a lot of tweaking that needs to be done here, to 
be honest. I think it is just getting a standardization of this 
patchwork so that everybody at this table that is on the buy 
side of these transactions understands what it is they are 
dealing with and for that matter, the sellers understand it as 
well.
    Mr. Garrett. Maybe that is how we can--if we are not 
revisiting in an official capacity or some other capacity, 
maybe that is something we should look at to see how we can 
encourage to get to that level of standardization, so you do 
have that consistency.
    Again, I thank the panel for their testimony.
    Chairman Kanjorski. Now we will hear from Mr. Green.
    Mr. Green. Mr. Chairman, while they are not witnesses, I do 
have two State representatives who are here today with Mr. 
Pardo. They are Representative Jim Dunham and Representative 
Garnet Coleman, and I wanted to acknowledge their presence.
    Let us for just a moment continue with what the chairman 
started, which was building a record. I am always concerned 
about whether or not there is systemic risk, but my suspicion 
is that all of the members of this panel will agree that there 
is not systemic risk at this time.
    If there is someone of the opinion that there is systemic 
risk at this time, will you kindly extend a hand into the air?
    There is.
    Ms. Voss. I think you really have to be careful about the 
effects of the securities market on what is happening in life 
insurance. And I think when we have these discussions with the 
SEC about expanding on the securitization of life settlement, 
what does that do in the back end to life insurance companies, 
their assumptions on the pricing of these products, that you 
could have something that would affect the insurance markets.
    So I am giving you a half-hand.
    Mr. Green. I take it.
    What you are saying is, using the example of AIDS, which, 
of course, many persons bought policies assuming that there 
would be a life expectancy of a certain number of years; and 
then with the drug treatments that became available, the life 
expectancy increased and that caused some persons to lose some 
of their investment.
    Is that the type of example that you are talking about?
    Ms. Voss. No. I am talking about, if the securitization of 
life settlement becomes a growing product, there is going to be 
a greater demand for the settlement of more policies, which 
could have an effect on how companies look at their assumptions 
when they price these products. And it could have some kind of 
an adverse impact; we just don't know at this point.
    Mr. Green. I concur with you. But at this moment, would you 
see that as a problem today, is my question.
    Ms. Voss. Not today.
    Mr. Green. Let the record reflect that as of today, we 
don't have the systemic risk, but do you agree or disagree?
    Perhaps I should say, would you agree that we do need some 
consumer protection in the marketplace? And if there is someone 
who differs, if you think we don't need consumer protection, 
that the market is fine as is, would you kindly raise your 
hand?
    I would like for the record to reflect that all of the 
witnesses are of the opinion that we do need some consumer 
protection.
    If you think that sophisticated investors should be a part 
of this process--and you mentioned sophisticated investors, Mr. 
Pardo. Of course, to be a sophisticated investor, one does not 
have to have a certain level of intelligence always, but it 
also has to do with the amount of capital that one has 
available to invest. And you have spoken of sophisticated 
investors.
    So let me ask Ms. Dubberly and Ms. Voss, if you would, is 
there a means by which sophisticated investors--persons who are 
not sophisticated investors may become involved in this to the 
extent that they can be harmed?
    Ms. Voss. If you are talking about the securitization and 
then purchase, if in fact you get to a market where the 
individual investor may be interested, yes, I think there could 
be harm.
    Mr. Green. Do you think that this patchwork that has been 
alluded to is something that should be addressed because of the 
inconsistencies and perhaps the lack of transparency in one 
State versus another State? Is this something that we should 
address, the patchwork?
    If you think that the patchwork is something we need to 
address, kindly extend a hand into the air.
    All right. Maybe it is easier to do it another way.
    If you think that we shouldn't address the patchwork and 
leave it as it is, would you extend your hand into the air?
    Ms. Dubberly. I have to say that part of the purpose of the 
chairman's task force that she has formed on life settlements 
at the Securities Exchange Commission is to look at all of the 
questions you are asking and do a holistic analysis of the 
whole situation.
    I don't know that we would have answers to any of those 
particular questions at this moment.
    Mr. Green. I am in complete agreement with you. But I am 
trying to find out from the other experts, are they in 
agreement that this should be looked into? I think you are 
doing the right thing, but I do want to find out if our other 
experts agree.
    Is there anyone who is in disagreement? Anyone?
    As my time is about to expire, let me ask Mr. Pardo one 
additional question.
    You were involved with some litigation that has somewhat 
helped to define this area. Do you want to have just a comment 
on that at this time, Mr. Pardo?
    Mr. Pardo. Are you talking about the SEC v. Life Partners?
    Mr. Green. Yes, sir.
    Mr. Pardo. In 1994, the Securities Administration brought 
suit against Life Partners claiming that the purchase of life 
settlements for sophisticated investors constituted the sale of 
securities. We took the position that it did not.
    The ultimate resolution of that case here in Washington, 
D.C., at the U.S. Court of Appeals, was that it was not a 
security in any rendition or iteration, as they put it in a 
U.S. Court of Appeals ruling in July of 1996 and reaffirmed by 
the court in December of 1996.
    So the U.S. Court of Appeals all the way back in 1996--this 
was, however, fact-specific to Life Partners' business model 
with it: It was not a security.
    But this patchwork I am talking about is that since that 
time, some States have chosen to ignore that Federal litigation 
and say, oh, well, we don't agree. And it is like me 
disagreeing with a cop, I wasn't speeding; I am still going to 
get the ticket.
    Mr. Green. I will have to yield back because my time has 
expired.
    Chairman Kanjorski. Mr. Manzullo of Illinois.
    Mr. Manzullo. Thank you, Mr. Chairman.
    Would anybody here like to see the securitization of these 
mortgages governed under the new or the proposed Consumer 
Financial Protection Agency? Do you guys know what that is?
    Do you know what that is, Mr. Pardo?
    Mr. Pardo. I am sorry. I am a little hard of hearing.
    Mr. Manzullo. Have you heard of the proposed Consumer 
Financial Protection Agency?
    Mr. Pardo. Yes, of course, I have.
    Mr. Manzullo. Would you like to be regulated by them?
    Mr. Pardo. I think they should have a regulatory role, some 
oversight of life settlement, yes, I do.
    Mr. Manzullo. Do you know what they would do?
    Mr. Pardo. I hope they would do what Congress asked them to 
do.
    Mr. Manzullo. That is not what an agency does. The first 
thing that they would do is, they would tell you the minimum 
amount that you can buy a policy for.
    Mr. Pardo. I do not believe that you can price fix, either 
the government or privately. Are you talking about putting a 
minimum?
    Mr. Manzullo. You bet. They will come in with life ratings 
and take a look at the product and take a look at the premium 
and the amount.
    Mr. Pardo. What is going to happen there, Congressman, if 
that happens, you are going to then be denying the market to 
the owner of the policy because if that doesn't agree with our 
numbers--and I am talking collectively at this table--the 
policy is not going to get bought.
    Mr. Manzullo. I am just saying, I am against this 
organization, but that is exactly what they will do because 
they want to make sure that the consumer gets a fair price for 
the product. They will find some way to do that.
    I don't think you want that, do you?
    Mr. Pardo. Not that, no.
    Mr. Manzullo. Be careful what you ask for when you want the 
Federal Government involved in this stuff.
    Ms. Voss, when you were saying that you know of no State 
that has adopted the model disclosure, you were shaking your 
head. Ms. Voss; is that correct?
    Ms. Voss. The model act has been introduced and passed in 
many States, including Iowa, and there are two different 
versions of regulation of life settlement that are out there.
    We have 45 States that have some version of the different 
models that have been enacted. So, yes, there is regulation out 
there.
    Mr. Manzullo. But you disagree, Mr. Pardo?
    Mr. Pardo. Yes, I would disagree. There are variations of 
regulations, and most States do regulate. But my statement was 
that no State has adopted the total model act, which they 
started working on in about the early 1990's.
    Mr. Manzullo. They have adopted the disclosure.
    Ms. Voss. We are happy to get you all of the different 
details of all of the different States and what they passed. 
And we updated that model in 2007, and many States have adopted 
it and even made it better, working with the life settlement 
industry to make sure it was appropriate.
    Mr. Manzullo. So you guys disagree with each other, 
correct?
    I want to get some life into this boring hearing.
    Mr. Pardo. The parts that have been adopted have been fine. 
But I am saying if you got the impression from the Commissioner 
from Iowa that all of the recommendations have been taken up by 
every single State, I don't think that is true.
    Mr. Manzullo. But you want the Federal Government to 
preempt that and come in with something?
    Mr. Pardo. No. I didn't say that.
    Mr. Manzullo. What exactly do you want this town to do for 
you? What is it that you want or don't want?
    Mr. Pardo. What we want is some minimum regulation from the 
Federal Government, minimum regulation from the Federal 
Government that standardizes the regulations between the 
States. Because these so-called nuances are--it is easy to say 
``nuance.''
    Mr. Manzullo. What you want is preemption then?
    Mr. Pardo. No.
    Mr. Manzullo. Nuance is called federalism. States have a 
right to pass their own laws with regard to the jurisdiction 
that exists there.
    Mr. Pardo. In the case of insurance, but this isn't the 
business of insurance.
    Mr. Manzullo. Are you saying this is a gray area?
    Mr. Pardo. I don't think it is gray.
    Mr. Manzullo. I am just trying to figure out, you know, 
what it is that you want from us because you never ask 
Washington for something and then be surprised at the product.
    Mr. Pardo. I think I told you what we wanted. But maybe I 
didn't make myself clear.
    Mr. Manzullo. Could you take a minute or so and tell me 
what that minimum regulation is that you want?
    Mr. Green. [presiding] The Chair will allow the gentleman 
to answer, and the time has expired afterwards.
    Mr. Pardo. I am not prepared to sit here and go through the 
entirety of it, but I will be happy to have one of my attorneys 
here behind me--
    Mr. Manzullo. No. Just an idea of what it is you want.
    Mr. Pardo. We would like to see--Life Partners, a 19-year 
participant in this industry, would like to see a 
standardization between the States of a minimum set of 
regulations such that instead of having to have two compliance 
lawyers and a staff looking at every single State and the 
differences between every single State, we can be dealing with 
standardized regulation.
    For instance, one thing would be reciprocity. We are 
licensed in the State of Texas. If we are licensed in the State 
of Texas and we are complying with Texas law--which I will say, 
for the most part adopts the NAIC model, but not entirely, and 
we comply with it and we are in good standing, then why should 
we have to go through the same regulatory process as a buyer 
now?
    Remember, we are not selling anything. Why should we have 
to go through that same process in Florida or New York or Iowa 
or any other State? Why can't there be reciprocity or some 
other mechanism that could be put into place that would allow--
    Mr. Green. We will ask that additional questions be placed 
in writing. Mr. Pardo can respond in writing.
    We will now recognize Mr. Grayson from Florida for 5 
minutes.
    Mr. Grayson. Thank you, Mr. Chairman.
    Looking down the table here, I want to know, are any of you 
looking for a bailout?
    Come on, be honest. Nobody? Well, that is refreshing, I 
must say.
    I just want to know because a lot of hearings that we have 
been having lately are focused on the question of taxpayer 
money going to private industry. I don't think that question 
has been raised today.
    Harm to the financial system, I don't see that question 
being raised today either.
    So I want to make sure, are any of you too-big-to-fail? I 
don't mean you personally. I mean your organizations. Are any 
of your organizations too-big-to-fail?
    No? Good. I am glad to hear that.
    Are any of you going to cause the destruction of the world 
financial system? Come on. Be honest. If you are going to cause 
the destruction of the world financial system, I want to know 
about it. Anybody? This is your last chance.
    No? None of you?
    Are any of you actually regulated already by any of the 
laws that we have passed on this committee?
    No?
    Oh, hey. We have somebody here. Okay, I am starting to see 
why we might be here today. But I think that, as I understand 
it, a big part of the reason we are here today is because of an 
article in the New York Times.
    So let me hear from Mr. Dorsett, your view of that article, 
since that is why we are all here.
    Mr. Dorsett. I would have to say we found that article to 
be rather poorly researched and quite misleading in its 
implications. We were told by the reporter that they did 
extensive research in the area, including trolling the LISA Web 
site, but somehow they couldn't find a phone number for Doug or 
myself to actually talk with anyone in the industry.
    I don't want to slam the New York Times, and certainly I 
will have to say we got a lot of calls because of that, both 
our individual members and LISA, by people saying, I didn't 
know you could sell a policy; how do I go about that? So it 
wasn't all bad.
    Mr. Grayson. Tell me exactly what it was you thought was 
wrong about the article. You said it was misleading.
    Mr. Dorsett. The numbers were vastly inflated, as you have 
heard from a number of testimonies today, as far as how big the 
industry is and what is going on. The implication that there 
was some relationship between the potential securitization of 
life settlement, which actually has not happened, and the 
subprime market was somewhere completely out of left field.
    So, as we said, we didn't see a whole lot of accuracy to 
the article. But it did point attention to the industry, and I 
suppose that is a good thing.
    Mr. Grayson. What were the scary things that the article 
mentioned that you feel aren't valid?
    Mr. Dorsett. The primary one was that life securitization 
was a train out of control, that the numbers were large, that 
it was not a regulated industry, and that somehow this was out 
of control and a train heading our way, which I think the 
testimony would indicate is not the case from pretty much 
anyone here.
    Mr. Grayson. What percentage of life insurance policies 
have been secured this way?
    Mr. Dorsett. There have been, to my knowledge, two private 
securitizations. One of them, the Coventry securitization; the 
AIG book was relatively large and involved 3,400 policies, and 
it was like $8 billion worth of life settlement. That, however, 
was a transaction done purely internally within AIG to move 
money from one place to another.
    Outside of that, legacy benefits today are a fairly small 
securitization. There are certainly a number of people who 
would like to securitize life insurance settlements and a lot 
of transactions are being looked at. But there are a number of 
hurdles to doing that, not the least of which is getting 
through the rating methodology.
    I have seen a lot of deals pitched here recently where, by 
the time you go through the process of creating the pool, 
adding capital support, future premium payments, 
overcapitalizing, the sorts of yields they were talking about 
weren't going to get anybody too terribly excited.
    Whether it is going to work in the market is an open 
question.
    Mr. Grayson. I do believe, Mr. Chairman, that we should not 
close the barn door after the horses have escaped from the 
barn. But here I see a situation where there is no barn, there 
is no barn door, and there are no horses, as far as I can see.
    But just to be absolutely clear about that. I don't want 
you coming back 6 months from now and saying you want a 
bailout. Are we clear about this? You are not asking for any 
Federal money, correct?
    All right.
    And you are not asking us to regulate something that is not 
regulated now by the Federal Government, are you?
    Mr. Dorsett. We are not.
    Mr. Grayson. Thank you very much, Mr. Chairman. I yield my 
time.
    Mr. Green. I thank all of the persons who are here 
testifying today, and I do so on behalf of our chairman who had 
to step away.
    Before we adjourn, we will have to make a part of the 
record the statement of Mr. Joseph M. Belth on life 
settlements. Without objection, it is so ordered.
    And the record will remain open so that persons who desire 
to submit additional questions may do so. The record will 
remain open for 30 days, such that we may receive the questions 
and responses.
    This panel is dismissed, and the hearing is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]


                            A P P E N D I X



                           September 24, 2009

[GRAPHIC] [TIFF OMITTED] 54870.001

[GRAPHIC] [TIFF OMITTED] 54870.002

[GRAPHIC] [TIFF OMITTED] 54870.003

[GRAPHIC] [TIFF OMITTED] 54870.004

[GRAPHIC] [TIFF OMITTED] 54870.005

[GRAPHIC] [TIFF OMITTED] 54870.006

[GRAPHIC] [TIFF OMITTED] 54870.007

[GRAPHIC] [TIFF OMITTED] 54870.008

[GRAPHIC] [TIFF OMITTED] 54870.009

[GRAPHIC] [TIFF OMITTED] 54870.010

[GRAPHIC] [TIFF OMITTED] 54870.011

[GRAPHIC] [TIFF OMITTED] 54870.012

[GRAPHIC] [TIFF OMITTED] 54870.013

[GRAPHIC] [TIFF OMITTED] 54870.014

[GRAPHIC] [TIFF OMITTED] 54870.015

[GRAPHIC] [TIFF OMITTED] 54870.016

[GRAPHIC] [TIFF OMITTED] 54870.017

[GRAPHIC] [TIFF OMITTED] 54870.018

[GRAPHIC] [TIFF OMITTED] 54870.019

[GRAPHIC] [TIFF OMITTED] 54870.020

[GRAPHIC] [TIFF OMITTED] 54870.021

[GRAPHIC] [TIFF OMITTED] 54870.022

[GRAPHIC] [TIFF OMITTED] 54870.023

[GRAPHIC] [TIFF OMITTED] 54870.024

[GRAPHIC] [TIFF OMITTED] 54870.025

[GRAPHIC] [TIFF OMITTED] 54870.026

[GRAPHIC] [TIFF OMITTED] 54870.027

[GRAPHIC] [TIFF OMITTED] 54870.028

[GRAPHIC] [TIFF OMITTED] 54870.029

[GRAPHIC] [TIFF OMITTED] 54870.030

[GRAPHIC] [TIFF OMITTED] 54870.031

[GRAPHIC] [TIFF OMITTED] 54870.032

[GRAPHIC] [TIFF OMITTED] 54870.033

[GRAPHIC] [TIFF OMITTED] 54870.034

[GRAPHIC] [TIFF OMITTED] 54870.035

[GRAPHIC] [TIFF OMITTED] 54870.036

[GRAPHIC] [TIFF OMITTED] 54870.037

[GRAPHIC] [TIFF OMITTED] 54870.038

[GRAPHIC] [TIFF OMITTED] 54870.039

[GRAPHIC] [TIFF OMITTED] 54870.040

[GRAPHIC] [TIFF OMITTED] 54870.041

[GRAPHIC] [TIFF OMITTED] 54870.042

[GRAPHIC] [TIFF OMITTED] 54870.043

[GRAPHIC] [TIFF OMITTED] 54870.044

[GRAPHIC] [TIFF OMITTED] 54870.045

[GRAPHIC] [TIFF OMITTED] 54870.046

[GRAPHIC] [TIFF OMITTED] 54870.047

[GRAPHIC] [TIFF OMITTED] 54870.048

[GRAPHIC] [TIFF OMITTED] 54870.049

[GRAPHIC] [TIFF OMITTED] 54870.050

[GRAPHIC] [TIFF OMITTED] 54870.051

[GRAPHIC] [TIFF OMITTED] 54870.052

[GRAPHIC] [TIFF OMITTED] 54870.053

[GRAPHIC] [TIFF OMITTED] 54870.054

[GRAPHIC] [TIFF OMITTED] 54870.055

[GRAPHIC] [TIFF OMITTED] 54870.056

[GRAPHIC] [TIFF OMITTED] 54870.057

[GRAPHIC] [TIFF OMITTED] 54870.058

[GRAPHIC] [TIFF OMITTED] 54870.059

[GRAPHIC] [TIFF OMITTED] 54870.060

[GRAPHIC] [TIFF OMITTED] 54870.061

[GRAPHIC] [TIFF OMITTED] 54870.062

[GRAPHIC] [TIFF OMITTED] 54870.063

[GRAPHIC] [TIFF OMITTED] 54870.064

[GRAPHIC] [TIFF OMITTED] 54870.065

[GRAPHIC] [TIFF OMITTED] 54870.066

[GRAPHIC] [TIFF OMITTED] 54870.067

[GRAPHIC] [TIFF OMITTED] 54870.068

[GRAPHIC] [TIFF OMITTED] 54870.069

[GRAPHIC] [TIFF OMITTED] 54870.070

[GRAPHIC] [TIFF OMITTED] 54870.071

[GRAPHIC] [TIFF OMITTED] 54870.072

[GRAPHIC] [TIFF OMITTED] 54870.073

[GRAPHIC] [TIFF OMITTED] 54870.074

[GRAPHIC] [TIFF OMITTED] 54870.075

[GRAPHIC] [TIFF OMITTED] 54870.076

[GRAPHIC] [TIFF OMITTED] 54870.077

[GRAPHIC] [TIFF OMITTED] 54870.078

[GRAPHIC] [TIFF OMITTED] 54870.079

[GRAPHIC] [TIFF OMITTED] 54870.080

[GRAPHIC] [TIFF OMITTED] 54870.081

[GRAPHIC] [TIFF OMITTED] 54870.082

[GRAPHIC] [TIFF OMITTED] 54870.083

[GRAPHIC] [TIFF OMITTED] 54870.084


</pre></body></html>
